                             Office of the Inspector General

November 29, 1999

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Performance Measure Review: Review of the Social Security Administration’s
Fiscal Year 2000 Annual Performance Plan (A-02-99-03007)


Attached is a copy of the subject final report. The objective of this review was to assess
the Social Security Administration’s Fiscal Year 2000 Annual Performance Plan’s
compliance with the Government Performance and Results Act and the Office of
Management and Budget.

You may wish to comment on any further action taken or contemplated on our
recommendations. If you choose to offer comments, please provide them within
60 days from the date of this memorandum. If you wish to discuss the final report,
please call me or have your staff contact Daniel R. Devlin, Acting Assistant Inspector
General for Audit, at 410-965-9700.



                                                James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




     REVIEW OF THE SOCIAL
  SECURITY ADMINISTRATION’S
    FISCAL YEAR 2000 ANNUAL
       PERFORMANCE PLAN

   NOVEMBER 1999   A-02-99-03007




AUDIT REPORT

                             Office of the Inspector General


William A. Halter
Deputy Commissioner
 of Social Security

Inspector General



Performance Measurement Review: Review of the Social Security Administration’s

Fiscal Year 2000 Annual Performance Plan (A-02-99-03007)



The Government Performance and Results Act (GPRA), Pub. L. No. 103-62,

107 Stat. 285 (1993), requires that the Social Security Administration (SSA) develop

performance indicators that assess the relevant service levels and outcomes of each

program activity. These indicators and goals are reported in SSA’s Annual

Performance Plan (APP). The APP establishes the connection between long-term

strategic goals, daily Agency operations, and the results to be achieved for a proposed

level of resources. The APP should also describe the means employed to verify and

validate the measured values used to report on program performance. This report

documents our review of SSA’s Fiscal Year (FY) 2000 APP, the second submitted by

SSA.


RESULTS OF REVIEW

SSA’s FY 2000 APP demonstrates a commitment, and improvement, in SSA’s efforts to
comply with GPRA and meet congressional expectations for information about the
Agency’s performance goals. The FY 2000 APP represents a significant improvement
over the FY 1999 APP. Acknowledging the evolving nature of GPRA reporting, we
believe that action can be taken to more fully comply with GPRA and Office of
Management and Budget requirements, and make future performance plans even more
useful to decision makers. Specifically, SSA could: (1) establish performance
measures for all major management challenges; (2) refine existing, and add additional,
indicators to better reflect planned performance; (3) more specifically identify resources
needed to achieve planned performance, and (4) identify known data weaknesses, and
planned corrective actions.

SSA’s APP DEMONSTRATES IMPROVEMENT AND COMMITMENT TO GPRA

SSA redesigned its FY 2000 APP to respond to weaknesses noted in its FY 1999 APP.
Specifically, we found that the FY 2000 APP includes an explanation of SSA’s unique
budget account structure and its relationship to the strategic goals, a description of key
initiatives for achieving performance goals, and additional detail on the procedures used
to verify and validate performance data. Acknowledging that the FY 2000 APP was
much improved over last year's plan, the Committee on Ways and Means,
Subcommittee on Social Security, rated SSA’s FY 2000 APP 84.5 out of a possible
score of 100. A similar review of the FY 1999 APP had resulted in a score of 17. The
Subcommittee particularly noted SSA’s attention to strategies and resources for
achieving intended performance, relating budgetary resources to performance goals,
and recognizing crosscutting agencies and organizations. We further believe that
inclusion of trend data for many of the performance goals was informative in assessing
planned performance over time.

PERFORMANCE MEASURES NOT ESTABLISHED FOR ALL MANAGEMENT
CHALLENGES

Responding to prior criticism, SSA included a section in the FY 2000 APP to
discuss key initiatives that address major management problems, such as
disability redesign, earnings improvement, debt collection, and improvement of
field office telephone service. OMB GPRA implementation guidance1 suggests
establishing goals to address major management problems. The value of an
APP is increased if it includes performance goals to address mission-critical
management problems. We found that, while the newly incorporated key
initiatives section of the APP provides a description of planned strategies and
milestones, strategies are not always translated into performance measures.
The absence of performance measures addressing major management problems
does not allow evaluation of the progress made in these areas. For example,

�	 The APP discusses various initiatives taken as part of SSA’s multiyear
   disability redesign project; however, there are no specific performance
   measures to gauge progress. In a March 1999 report2 on the disability
   redesign, the General Accounting Office noted that SSA needs adequate
   performance goals and measures for key initiatives and objectives in order to
   monitor and assess the impact of any changes made.

�	 While SSA has an initiative in its comprehensive 5-year earnings
   improvement program to reduce both the rate of growth and the size of the
   earnings suspense file, there is no corresponding performance measure
   presented to evaluate progress in the area of this major management
   challenge.

�	 The Debt Collection Improvement Act of 1996 (DCIA) authorized new
   procedures to collect Old-Age and Survivors Insurance (OASI) overpayments.
   A recent audit by SSA’s independent public accountants recommended that,
   although SSA had made noteworthy progress in its efforts to collect
   overpayments, the procedures could be strengthened as authorized by the

1
    OMB Circular A-11, Part 2.

2
    SSA Disability Redesign: Actions Needed to Enhance Future Progress (GAO/HEHS-99-25).



                                                2

    DCIA. While the APP describes various efforts at improving debt collection
    within two major key initiatives (Combating Fraud and Title XVI Debt), there
    are no specific performance measures to track progress at implementing the
    initiatives.

�	 SSA acknowledges that field office telephone service is less than “world-
   class,” but notes that the lack of management information makes it difficult to
   determine where and how to focus improvement efforts. While the key
   initiatives section of the APP notes plans to conduct ongoing activities to
   measure quality and courtesy of field office telephone service, no specific
   measures of work to be accomplished or results to be achieved are included.

�	 Both the Office of the Inspector General (OIG) and its contract independent
   auditors have reported that SSA’s systems are vulnerable to fraud, but that
   SSA has made noteworthy progress to implement needed improvements. We
   believe that including a performance measure to assess SSA’s progress
   toward making these improvements would be beneficial.

SOME MEASURES COULD BETTER REFLECT PERFORMANCE

The output and outcome goals in the FY 2000 APP, and the corresponding strategies to
achieve them, establish a basis for understanding planned performance and the
strategies to achieve them. Nevertheless, certain measures could be refined to better
reflect actual performance, additional measures would provide greater accountability,
and trend data for output measures would provide perspective on planned performance.
Specifically,

�	 The measurement of initial disability claims average processing time represents a
   combined measure of both OASI and Supplemental Security Income (SSI) claims
   processing. We believe that there should be individual measures for OASI and SSI.
   Historically, there have been differences in the amount of time it takes to process
   cases in the different programs, and regulation3 established different threshold levels
   for OASI and SSI disability claims processing times.

�	 The goal of awarding a contract to design a methodology to validate a single medical
   listing is vague in that it does not provide perspective on the scope of the effort. It
   would be more valuable if there were an indication for the basis of which listings
   would be validated first, such as the most commonly approved medical listing.
   Similarly, SSA’s goal of awarding a contract to establish a Disability Research
   Institute does not provide specifics on how such an Institute would further SSA’s
   mission nor on the measurable output or outcome of the Institute.

�	 The APP contains objectives for which performance measures are not established.
   For instance, there are objectives to issue 50 percent of initial disability decisions

3
 20 CFR 404.1642, which established processing time standards for State disability determination
services.


                                                3

   within 60 days of filing, and to issue 30 percent of hearing decisions within 120 days
   of the request date. However, there are no corresponding performance indicators.
   While the FY 1999 APP had such indicators, SSA notes that the FY 2000 APP does
   not because SSA will be reevaluating processing time objectives as part of the
   disability redesign. While acknowledging the broad effects of the redesign,we
   believe that SSA should continue to report and be accountable for the processing of
   these claims and decisions via establishment of specific indicators while the
   redesign is in process. Similarly, while the accuracy of disability payments is a
   strategic objective, there is no corresponding performance goal. We believe that
   SSA’s efforts to establish such a measure could be established as a goal to gauge
   progress.

�	 The APP contains output measures for budgeted workloads— the number of Social
   Security number (SSN) requests processed, the number of 800 number calls
   handled, and annual earnings postings— that are presented in an Appendix in
   support of various strategic goals. However, the funds budgeted to implement this
   workload are separately presented in the APP under discussion of the related goal,
   and there is no baseline data to provide perspective on the reasonableness of the
   measures. We believe aligning the output measures for budgeted workloads with
   funds budgeted for such workloads in the discussion of the goal would provide
   greater perspective and a more complete picture of SSA’s planned performance.

ALL MEASURES DO NOT SPECIFICALLY IDENTIFY RESOURCES WITH
PLANNED PERFORMANCE

GPRA allows flexibility to aggregate, disaggregate, or consolidate an Agency’s
program activities so that they align with performance goals. SSA’s FY 2000
APP aligns performance goals by major functional responsibility rather than by
budget account. However, the resources, human capital, and technology
necessary to achieve most performance goals are not adequately described.
This is particularly important given congressional concern that the recent multi-
billion dollar investment for the reengineering of SSA processes had not been
adequately linked to direct improvements in service, productivity, and efficiency,
and had not resulted in attainment of performance goals.

While SSA acknowledges, and we recognize that SSA’s business processes
support multiple programs and strategic objectives, we believe specific costs
could be identified with many specific performance measures. For instance,
under the strategic objective to promote policy changes that relate to the
disability program, the goal for three of the five measures involves contracted
services. Additionally, staffyears associated with many planned output goals
could be disclosed. The Statement of Federal Financial Accounting Standard,
Number 4, requires that agencies determine the full cost of each program
activity. Specifying the planned cost and resources of these activities would
provide a better link between performance and resources.




                                          4

In addition, more detail on the level of information technology resources needed,
and its effect upon productivity, would be beneficial. For instance, the goal to
provide overnight electronic SSN verification for employers was reported in both
the FY 1999 and 2000 APP’s. The FY 2000 APP notes that adequate hardware,
software, and telecommunications capacity must be in place. While the
availability of such is crucial to the outcome, there is no discussion of what
resources are needed to implement the equipment. A similar discussion would
be informative for three other goals that support the indicator to make available
new or expanded services electronically. The report on SSA’s FY 2000 APP by
the Committee on Ways and Means, Subcommittee on Social Security similarly
noted that future plans would benefit from more specific information regarding
technology strategies, resources, and performance goals.

KNOWN DATA LIMITATIONS AND WEAKNESSES ARE NOT IDENTIFIED

SSA provides a good description of the procedures used to verify and validate
performance data, and identifies known limitations of some of the measurements.
Other limitations, however, are not disclosed. For instance, note is made that the
measure for processing of SSN cards does not include requests through the
Enumeration-at-Birth system; and there is no mention that the percent of earnings
posted to individuals’accounts doesnot include self-employment earnings.
Additionally, known data weaknesses are not disclosed as required. For instance,

�	 SSA has acknowledged weaknesses with its SSI debt management system, which
   result in inaccurate reporting and accounting of SSI overpayments and
   underpayments. While SSA is taking action to correct these weaknesses, the APP
   does not disclose the potential effect upon the debt collection measures, as
   required.

�	 OIG previously reported4 that not all aspects of the SSN issuance process were
   measured and inaccurate data was utilized to measure the process. Responding to
   the report, SSA agreed to improve the accuracy of the data, but the APP did not
   note planned actions to improve data accuracy.

CONCLUSIONS AND RECOMMENDATIONS

The FY 2000 APP addressed many of the concerns expressed about SSA’s
FY 1999 APP. Improvements included an explanation of SSA’s budget structure
and how it relates to the strategic goals, a description of key initiatives, and
detail on verification and validation procedures. These improvements provide
decision-makers a perspective on strategies, planned performance, and
measurement processes. We believe that future APP’s would be enhanced if
SSA:


4
 Performance Measure Audit: Timely Issuance of Social Security Number Cards (A-02-97-93003),
April 1998


                                              5

1.	 establishes performance measures for all major initiatives and management
    problems;

2. provides measures that better reflect planned performance;

3.	 more specifically identify the resources, human capital, and technology needed for
    planned performance, and

4. discloses known data limitations and weaknesses and planned corrective actions.

AGENCY COMMENTS

SSA agreed in principle with our four recommendations, but not with all the findings.
The agency noted that our conclusion thatthe FY 2000 APP represents a significant
improvement over the FY 1999 APP, and reflects SSA’s efforts to improve the information
provided about its performance goals in theAPP’s.

SSA agreed with our recommendation that performance measures be established in the
APP for all major management challenges. SSA stated that progress on major
management challenges to date had been tracked either through a performance
measure in the APP or at the Executive level. SSA agreed to include the 11 major
management challenges identified by GAO or OIG in its FY 2001 APP. Similarly, SSA,
agreed to include in the FY 2001 APP more information on the resources, human
capital, and technology needed for planned performance.

SSA agreed with our overall finding that certain performance measures could be refined
to better reflect actual performance, but did not agree with all the specific findings.
Specifically, while agreeing that separate measures for title II and title XVI are sensible
for internal tracking, SSA did not necessarily believe they were appropriate at this time
for external reporting. SSA stated that it would be considering alternatives to refine
average disability processing time in the future. SSA also stated that it did not agree
that the value of establishing a Disability Research Institute was not clear in the APP. It
noted that the Institute is intended to increase the base of research, evaluation, and
analyses available to the agency. SSA also stated that prior indicators related to
disability and hearings decision processing times were eliminated and replaced by
interim measures to help the agency focus on its management strategy to maintain
processing times and improve accuracy for initial disability claims.

SSA agreed to disclose known data limitations and weaknesses in futureAPP’s, as
appropriate. SSA noted that it has disclosed the limitation on the SSN requests
processed, and SSA did not believe that sufficient information was provided to comment
on our finding that all aspects of the SSN process were not measured and that
inaccurate data were utilized in the measurement process.




                                           6

SSA also provided technical comments that were considered and incorporated, where
appropriate, in this final report. The full text of SSA’s comments is included in
Appendix C.

OIG RESPONSE

We acknowledge the improvements made by SSA in its FY 2000 APP, and recognize
the evolutionary nature of the APP. Our recommendations are designed to continue the
evolution toward greater usefulness to both internal and external stakeholders. We
continue to believe that separate measures for title II and title XVI processing are
appropriate due to the different nature of the two disability programs and separate
customer bases. While we recognize that the Institute will be an important factor in
SSA’s multi-year strategy to develop disability policy, we continue to believe that the
APP could provide more specific outcomes on how such an Institute would further
SSA’s mission. Similarly, while acknowledging the developmental process of SSA’s
disability redesign, we believe measures, even if interim, are appropriate to gauge
progress toward stated objectives as redesign efforts continue.

We noted that SSA discloses that SSN requests processed through the Enumeration-at-
Birth system are excluded from the measure. As is noted in the report, our comment
about inaccuracies in the measurement of SSN cards dealt with issues raised in a prior
OIG report, “Performance Measure Audit: Timely Issuance of Social Security Number
Cards (A-02-97-93003). We continue to believe that recording the time and date at the
beginning and end of the entire process and preventing inaccurate data entries are
necessary to provide an accurate measurement of actual processing time.




                                              James G. Huse, Jr.




                                         7

                             APPENDICES



APPENDIX A – Background


APPENDIX B – Scope and Methodology


APPENDIX C – Agency Comments


APPENDIX D - Major Contributors to this Report

                                                                           APPENDIX A



                             BACKGROUND

Congress enacted the Government Performance and Results Act of 1993 (GPRA) to
improve the performance of the Federal Government through a process by which
agencies establish goals for program performance and measure their results.
Performance-based management, as envisioned by GPRA, is a dynamic and
complementary process of setting a strategic direction, defining annual goals and
measures, and reporting on performance. GPRA requires agencies to prepare a
multiyear strategic plan that sets the general direction for their efforts. Agencies also
must prepare an annual performance plan (APP) that establishes the connections
between the long-term strategic goals outlined in the strategic plans and the day-to-day
activities of managers and staff. Additionally, GPRA requires that each agency report
annually on the extent to which it is meeting its annual performance goals and the
actions needed to achieve or modify those goals that have not been met.

In October 1997, the Social Security Administration (SSA) released its first strategic
plan, “Keeping the Promise,”since becoming an independent Agency in 1995. SSA has
established five broad strategic goals in support of its mission, each of which has
supporting strategic objectives. The five strategic goals are to:

      •	 Promote valued, strong and responsive Social Security programs and
         conduct effective policy development, research and program
         evaluation.
      • Deliver customer-responsive, world-class service.
      •	 Make SSA program management the best in business, with zero
         tolerance for fraud and abuse.
      • Be an employer that values and invests in each employee.
      • Strengthen public understanding of the Social Security programs.

SSA’s Fiscal Year (FY) 2000 APP was submitted with its FY 2000 budget request. The
APP is organized by the five strategic goals, for which SSA describes the activities
performed in support of the goal. There are 18 strategic objectives supporting the
5 strategic goals, each of which has one or more performance indicators and goals
established for FY 2000. A general rationale, as well as baseline performance data,
data sources and backgroundinformation, is provided for each of the indicators. SSA
has also developed a set of strategies, called programs for objective achievement,
which should lead to achievement of each strategic objective. Each program for
objective achievement is supported by one or more key initiatives for implementing
required change activities.
                                                                              APPENDIX B



               SCOPE AND METHODOLOGY


The objective of this review was to assess the extent to which the Social Security
Administration’s (SSA) Fiscal Year (FY) 2000 Annual Performance Plan (APP) complies
with the requirements of the Government Performance and Results Act (GPRA) and the
Office of Management and Budget’s (OMB) Circular A-11. This review is part of Office
of the Inspector General’s (OIG) on-going efforts to respond to a request by
Congressmen Armey, Burton, Horn, and Sessions that the OIG examine SSA’s
development of its performance measures and goals.

To meet our objectives, we reviewed SSA’s FY 2000 APP to determine its adherence to
the GPRA and OMB requirements, as well as to APP guidance issued by the General
Accounting Office (GAO). We analyzed the FY 2000 APP to determine whether SSA
addressed the weakness noted by GAO5 in SSA’s FY 1999 APP. We compared SSA’s
FY 1999 and FY 2000 APPs, to determine the extent to which the FY 2000 APP
addressed weaknesses that we had identified in the FY 1999 APP. In addition, we
reviewed the May 11, 1999 report by the Committee on Ways and Means,
Subcommittee on Social Security that evaluated SSA’s FY 2000 APP. We analyzed
SSA’s FY 2000 Justification of Estimates for Appropriations Committees to identify
actions taken by SSA in response to weaknesses noted in the FY 1999 APP.

We also analyzed the FY 2000 APP to assess the extent to which the performance
measures established were comprehensive and appropriate for what they purported to
measure, and the extent to which the measures addressed major initiatives and
management challenges identified by our on-going work of SSA’s programs. In
addition, we reviewed SSA’s draft responses to the Senate Appropriations Committee’s
questions on GPRA implementation.

The work was performed by the New York Regional Office from June 4, 1999 through
June 25, 1999. Our audit was performed in accordance with generally accepted
government auditing standards.




5
 “The Results Act: Observations on SSA’s FY 1999 Performance Plan”(GAO/HEHS-98-178R),
June 1998.
                   APPENDIX C



AGENCY COMMENTS

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "PERFORMANCE MEASUREMENT REVIEW : REVIEW OF THE SOCIAL
SECURITY ADMINISTRATION'S FISCAL YEAR 2000 ANNUAL PERFORMANCE
PLAN” (A-02-99-03007)


Recommendation

Establish performance measures for all major initiatives and
management problems.

Comment

We agree that, to ensure success in responding to major management
challenges, it is useful to have measurable goals, indicators or
initiatives that are tracked. We believe that for some major
management problems, numeric outcome or output goals, as
envisioned by the Government Performance and Results Act (GPRA ),
are appropriate. For others, we believe that measurable
milestones of initiatives that are tracked at the Executive level
are appropriate. For all our major management problems, we have
one and/or the other.

We are including in our Fiscal Year (FY) 2001 Annual Performance
Plan (APP) (to be issued in February 2000) the 11 major management
challenges identified by the General Accounting Office and OIG,
and the Social Security Administration's (SSA) approach and
commitments to addressing and/or resolving them. For all the
challenges identified, we have adopted an approach that includes
tracking measurable performance goals, including, as appropriate,
outcomes, outputs and/or milestones.

In addition, our FY 2001 APP will contain discrete sections which
display the performance measures which are being used to measure
the impact of our plans to address our two key management
challenges - the Supplemental Security Income (SSI) Program
Management Improvement and the Social Security and SSI Disability
Program Management Improvement.

Recommendation

Provide more accurate measures of planned performance.
Comment

We agree in principle with the OIG finding that, in certain cases,
certain measures could be refined to better reflect actual
performance and will incorporate the finding as appropriate.
However, we do not agree with the specific findings as is
discussed below.

We do not agree that the goal breakouts proposed by OIG for
disability claims average processing time (i.e., title XVI and
title II) are necessarily the best way to proceed at this time.
However, we do agree that for internal purposes, tracking the two
processing times separately is sensible, and we would note our
Tracking Report contains these breakouts. In evolving our
measures for the improvement of disability program management, we
are considering alternatives for refining processing time
measures; these will be contained in our FY 2001 APP.

We also do not agree with OIG's statement that the value of
establishing a Disability Research Institute is not clear from
the APP. We clearly state on page 29 that the Disability
Research Institute would provide research findings in critical
disability policy areas, disseminate important findings, provide
a mechanism for training scholars in disability research and
assist in finding methods of sharing disability administrative
data with researchers. These activities increase the base of
research, evaluation and analyses available to the Agency. The
improved base of knowledge will be used, as stated in the
strategic objective, to shape the disability program. On
page 3 of our plan, we explain that our strategy for achieving
the objective to develop disability policy based on research,
evaluation, and analysis will take several years to implement
and will require legislation. We further explain that we are
using milestones and deliverables related to supporting research
and policy development efforts as interim indicators of our
progress. Accordingly, we believe OIG should delete the
statement that the value of establishing a Disability Research
Institute is not clear.

OIG's comment that the elimination of certain indicators related
to disability claims and hearings processing time in the FY 2000
plan results in those workloads not being measured is erroneous.
As we stated in our plan, we chose to use the indicators in our
FY 2000 plan as interim measures because they help us to focus on
our management strategy to maintain processing times and improve
accuracy for initial disability claims. Continuing to use
indicators that we believe were more appropriately dropped would
be unwarranted and inappropriate.

Recommendation

More specifically identify the resources, human capital and
technology needed for planned performance.

Comment

We agree in principle with this recommendation and will include
in the FY 2001 APP more information on the resources, human
capital and technology needed for planned performance.

Recommendation

Disclose known data limitations and weaknesses and planned
corrective actions.

Comment

We agree in principle that data limitations and weaknesses should
be identified in the APP and will incorporate the recommendation
as appropriate.

However, we disagree with OIG's specific findings that SSA fails
to acknowledge in the FY 2000 APP that all aspects of the Social
Security number (SSN) process are not measured. In fact, we
clearly state in the definition of the indicator that source data
exclude SSNs assigned via the Enumeration-at-Birth process and the
time associated with the delivery of the SSN card to the
applicant. This erroneous statement should be deleted from the
final OIG report.

We do not believe the report reflects sufficient information for
us to comment on the OIG finding that not all aspects of the SSN
process were measured and that inaccurate data were utilized to
measure the process.

With respect to the SSI program, the existing debt management
material weakness ("Inaccurate Reporting and Accounting of the
Title XVI Overpayments and Underpayments") results in data
inaccuracies in information that include debt detection and
clearance. Correcting the material weakness will provide SSA
increased control over debts and accounting accuracy that will
directly improve the information available for performance
measurement. For example, SSA implemented a new software release
in July 1999 that improves control over SSI debts and reduces the
extent to which debts remain unresolved on closed out records by
automatically transferring debts to new records for resolution.
To the extent that these transferred debts are collected on new
records, this new software release will increase debt recoveries
and reduce the degree to which these debts would otherwise be
written off. We acknowledge that other aspects of correcting the
accounting for debt will result in SSA having better information,
and in some cases more information than is now available, to
accurately account for (and measure) new debt detection and
clearance, including recovery of debt as part of overall debt
clearance.

Technical Comments

Page 3, first bullet - OIG indicates that while SSA "...plans to
conduct ongoing activities to measure the quality and courtesy of
field office (FO) telephone service, no specific measures of work
to be accomplished or results to be achieved are included." The

Agency began to monitor the quality and courtesy of FO telephone
service effective September 1, 1999, and the first report of the
results is scheduled for September 2000. This activity is
included in the Agency's overall Market Measurement Program.
Once the baseline data on performance become available, we will
consider establishing a performance goal regarding the
quality/courtesy of FO telephone service.

Page 3, "Some Measures Could More Accurately Reflect Performance"
-Since the term "accurate" is an absolute, the term "more" should
not be associated with it. We suggest that all uses of "more
accurately" be rephrased.

Third bullet, "Some Measures Could More Accurately Reflect
Performance" - OIG states that "...while the accuracy of
disability payments is a strategic objective, there is no
corresponding performance goal." OIG further states that it
believes SSA's efforts to establish such a measure could be
established as a goal to gauge progress. The Deputy
Commissioner, Office of Disability and Income Security Programs
(ODISP), is the Program for Objective Achievement sponsor for
establishing this measure and the Office of Quality Assurance
and Performance Assessment (OQA) is the component that will
conduct the review of the sampled disability cases. OQA has
been conducting the review of the nondisability aspects of the
sampled cases for a number of months. ODISP is developing
procedures to have the Disability Determination Services conduct
a continuing disability review of the medical factors of the
sampled cases.
                                                                            APPENDIX D



                   MAJOR CONTRIBUTORS


Office of the Inspector General

E. Scott Patterson, Director, Management Audits and Performance Monitoring

Frederick C. Nordhoff, Acting Director, Financial Management Audit
 Division/Performance Monitoring

Timothy F. Nee, Deputy Director

John P. Harrison, Senior Auditor-in-Charge

Cheryl Robinson, Writer-Editor, Technical Services



For additional copies of this report, please contact the Office of Inspector General’s
Public Affairs Specialist at (410) 966-9135. Refer to Common Identification
Number (A-02-99-03007).
                        APPENDIX E



SSA ORGANIZATIONAL CHART

